USAID
OFFICE OF INSPECTOR GENERAL


Independent Auditor’s Reports on USAID's Consolidated
Financial Statements, Internal Controls, and Compliance for
Fiscal Year 2000


Audit Report (Report No. 0-000-01-006-F)
February 26, 2001




                                                 U.S. Agency for
                                      International Development
U.S. AGENCY FOR

INTERNATIONAL

 DEVELOPMENT



                                                      February 26, 2001


        MEMORANDUM FOR M/CFO, Michael T. Smokovich


        FROM:      IG/A/FA, Alvin A. Brown

        SUBJECT:   Independent Auditor’s Reports on USAID's
                   Consolidated Financial Statements, Internal
                   Controls, and Compliance for Fiscal Year 2000,
                   Audit Report No. 0-000-01-006-F

             The Office of Inspector General is transmitting its

        reports on the audit of U.S Agency for International

        Development’s (USAID’s) fiscal year 2000 financial

        statements, related internal controls, and compliance with

        applicable laws and regulations. As agreed, only selected

        items were reviewed, as set forth in the reports attached.

        An additional report on your Management Discussion and

        Analysis will be prepared and transmitted in spring 2001.


             Under the Government Management Reform Act of 1994,

        USAID is required to prepare consolidated fiscal year-end

        financial statements. USAID is required to submit audited

        financial statements to the Office of Management and Budget

        and the Department of the Treasury by March 1 following

        fiscal year end.


             We do not express an opinion on USAID's fiscal year

        2000 financial statements because our audit scope was

        impaired. This impairment resulted because USAID has not

        implemented adequate financial management systems to

        produce complete, reliable, timely, and consistent

        financial information without making material year-end

        adjustments. Due to time constraints, we were unable to

        assess the reasonableness of the adjustments and the

        reliability of the balances reported.

     USAID's internal controls have improved during the

past 12 months. However, additional corrective actions are

still needed to correct deficiencies reported in our

previous reports. USAID had not fully implemented adequate

internal controls to ensure that its financial information

was reliable, complete, timely, and consistent. Concerning

USAID's compliance, we noted 3 material instances of

noncompliance with United States government laws and

regulations.


     Because USAID has embarked on a significant effort to

improve the systems that produce its financial statements

and has not fully implemented all corrective actions needed

to improve its accounting and financial systems, we agreed

that it would be most beneficial to concentrate fiscal year

2000 audit efforts in the following five significant areas:


      •	 Reporting credit program receivables,

      •	 Accounting for Advances to Grantees,

      •	 Calculating and reporting accounts payable and
         accrued expenses,

      •	 Reconciling and managing USAID’s fund balance with
         the U.S. Treasury, and

      •	 Preparing the Management Discussion and Analysis
         (MD&A) Section,

     We issued individual reports for the first four areas1

and you agreed to the recommendations contained within each

of the reports. We will issue a report for the MD&A

section in the spring of 2001.


     We have evaluated and incorporated comments provided

to our draft report in Appendix I & II.



      1

            (1)Audit on USAID’s Credit Programs and Related Internal
Controls for Fiscal Year 2000; (Audit Report No. 0-000-01-002-F),
issued February 15, 2001; (2) Audit of USAID’s Advances and Prepayments
for Fiscal Year 2000, (Audit No.0-000-01-003-F), issued February 15,
2001; (3) Audit of USAID’s Accounts Payable and Accrued Expenditures
for Fiscal year 2000 (Audit No. 0-000-01-004-F), issued February 15,
2001, and (4)Audit of USAID’s Fund Balance with Treasury for Fiscal
Year 2000, (Audit No. 0-000-01-005-F), issued February 15, 2001.



                                   2

     I would like to express my sincerest appreciation for

the courtesies extended by your staff to the auditors over

the past year. The Office of the Inspector General is

looking forward to working with you on the audit of the

fiscal year 2001 financial statements and seeing improved

systems and controls.





                             3

                          EXECUTIVE SUMMARY





The Government Management Reform Act of 1994 requires the U.S. Agency for
International Development (USAID) to prepare and submit audited consolidated financial
statements for inclusion in the government-wide financial statements. This law and
applicable auditing standards require the Office of Inspector General to:

       1.	     Audit the financial statements and issue an opinion on the fairness of
               presentation in accordance with generally accepted accounting principles,

       2.	     Report on related internal controls, and

       3.	     Report on compliance with applicable laws and regulatio ns.

For fiscal year 2000, the Office of the Inspector General agreed with USAID’s
management to focus our audit effort on the high-risk balance sheet line items, the
Management Discussion & Analysis (MD&A), general controls, and followup on prior
recommendations. We issued a series of reports that communicated the results of our
audits conducted on selected material line items reported in USAID’s fiscal year 2000
balance sheet. In the individual reports, we made recommendations to improve USAID’s
ability to calculate and report its balances at fiscal year end. (See Appendix IV for a
listing of reports issued for fiscal year 2000). Accordingly, we have not expressed an
opinion on the fairness of USAID’s financial statements.


Auditor's Opinion on USAID’s Fiscal Year 2000 Financial Statements

We do not express an opinion on the consolidated financial statements 2 for the fiscal year
ending September 30, 2000, because our audit scope was impaired. This impairment
resulted because USAID has not implemented adequate financial management systems to
produce complete, reliable, timely and consistent financial statements without material
year-end adjustments. In an effort to address a deficiency reported in our previous audit
reports, USAID changed its methodology for calculating and reporting accounts payable,
which resulted in a material adjustment being made, which we were unable to validate.




       2
               See Appendix V for USAID’s Consolidated Financial Statements for Fiscal year 2000.


                                                i
Further, the Department of Health and Human Services, the agency that provides
payment and management services to USAID for its advances to grantees, experienced
system problems during the third and fourth quarters of fiscal year 2000. As a result,
USAID’s management had to develop a methodology to estimate the balances for the
accrued expenses related to advances to grantees and the outstanding advances at
yearend. This also resulted in material year-end adjustments being made, which we were
unable to validate.

Due to time constraints, we were unable to evaluate the reasonableness of the new
methodologies and the reliability of the balances reported. In addition, USAID had not
completed its implementation of our recommendations made to correct previously
identified deficiencies. The uncorrected system deficiencies and material adjustments
created a consequential risk that the financial statements could contain material
misstatements. Accordingly, we have not expressed an opinion on the fairness of the
financial statements. (See pages 3 to 5).

Report on Internal Control Weaknesses

We found that USAID made improvements in some significant areas of its financial
statements. However, USAID has not implemented adequate financial management
systems to produce complete, reliable, timely and consistent financial statements without
material year-end adjustments. Although USAID has made some improvements in its
financial management systems over the past year, management had not fully
implemented corrective actions previously recommended. As a result, USAID continues
to make material �in excess of $3 billion�adjustments to its year-end accounts payable
and advances balances.

In addition, USAID did not consistently report reliable financial information; and
computer security deficiencies continue to exist. Finally, USAID needs to strengthen its
internal controls over the performance information reported in the MD&A. Detailed
information concerning the selected material line items reported on the balance sheet and
the computer security issues identified can be found in the reports identified in the
appendices of this report.


       USAID Did Not Consistently

       Report Reliable Financial Information


USAID did not consistently report reliable financial information. Although USAID has
improved its credit program and fund balance internal controls, its managers need to
strengthen their processes for recording and reporting financial information in accordance
with generally accepted accounting principles. We found that certain financial
information reported by USAID was not consistently complete, reliable, and timely. As a
result, material adjustments were made after year-end. USAID reported that its financial
management systems do not fully comply with some federal financial management
system requirements, standards, and the U.S. Government Standard General Ledger at the



                                            ii
transaction level. USAID has identified the current primary accounting system as a
material weakness in its fiscal year 1999 Accountability Report and has decided to report
these same material weaknesses in the fiscal year 2000 Accountability Report, which will
be issued on March 1, 2001.


        Computer Security

        Deficiencies Continue to Exist


In the past year, USAID has made significant progress in improving its computer security
program. However, additional work is required to fully implement an effective computer
security program.

The OIG has issued several audit reports 3 identifying computer security deficiencies that
expose USAID to unacceptable risks that resources and sensitive data might not be
adequately protected from loss or destruction. The deficiencies exist because USAID has
not implemented an effective computer security program as required by the Computer
Security Act and OMB Circular A-130 “Management of Federal Information Resources”.

Responding to OIG audits that identified computer security vulnerabilities, USAID
identified its overall computer security program and NMS security and access controls as
material weaknesses in its fiscal year 1997 Integrity Act Report, and its Accountability
Reports for fiscal years 1998 and 1999. However, in the draft Accountability Report for
fiscal year 2000, the NMS security and access controls weaknesses are no longer
considered a material weakness by USAID. However, USAID’s other computer security
program deficiencies still represent a material weakness. (See pages 6 to 16).


Report on Compliance with Laws and Regulations

USAID did not comply with provisions of three laws affecting the financial statements.
Consequently, USAID has no assurance that all transactions were executed in accordance
with:

        1.	 Laws governing the use of budget authority and other laws and regulations
            that could have a direct and material effect on the Principal Financial
            Statements or Required Supplementary Information.

        2.	 Other laws, regulations, and government-wide policies identified in Appendix
            C of OMB bulletin 01-02.
        3
                  Audit of USAID’s Progress Implementing a Financial Management System That Meets
Federal Financial Management Improvement Act Requirements (Audit Report No. A-000-99-003-P),
issued March 1, 1999; Audit of General Controls Over USAID’s Mainframe Computer Environment (Audit
Report No. A-000-99-004-P) issued March 1, 1999; Audit of General Controls Over USAID’s Client-
Server Computer Environment (Audit Report No. A-000-99-005-P), issued on March 1, 1999; and Audit of
USAID’s Actions to Correct Financial Management System Planning Deficiencies (Audit Report No. A­
000-00-003-P), issued August 24, 2000.


                                                 iii
We have provided examples of noncompliance with the specific laws and regulations in
the attached reports. (See pages 17 through 27).

For our audit of USAID’s fiscal year 2000 financial statements, we statistically selected
and reviewed the financial transactions at 10 missions. Specific details on reportable
conditions found will be reported by the individual Regional Inspectors General to the
responsible mission management officials.




Office of Inspector General
February 26, 2001




                                            iv
                             Table of Contents


                                                                       Page

EXECUTIVE SUMMARY                                                        i

INTRODUCTION                                                             1

REPORT ON USAID'S CONSOLIDATED
FINANCIAL STATEMENTS

    We Disclaim (Are Unable to Express) an Opinion on
    Whether the Financial Statements are Presented Fairly                3

REPORT ON USAID'S INTERNAL CONTROLS

    Background on Internal Controls                                      6

    Scope of Our Consideration of USAID's Internal Controls              7

    Audit Finding

           USAID Has Made Some Improvements in Its Financial
           Management Systems But Additional
           Corrective Actions Are Needed                                 9

                    Computer Security Deficiencies Continue to Exist     13

                    Internal Controls Over MD&A Performance
                    Information Must be Strengthened                     15


REPORT ON USAID'S COMPLIANCE

    Chief Financial Officers Act of 1990                                 17

    Federal Financial Management Improvement Act of 1996                 18

    Computer Security Act of 1987                                        25
                     Table of Contents

                                            Page

APPENDICES

OIG EVALUATION OF MANAGEMENT COMMENTS            I

USAID MANAGEMENT COMMENTS                     II

STATUS OF UNCORRECTED FINDINGS AND
RECOMMENDATIONS FROM PRIOR AUDITS
THAT AFFECT THE CURRENT AUDIT OBJECTIVES     III

INTERNAL CONTROL REPORTS ISSUED FOR
FISCAL YEAR 2000                             IV

USAID’S CONSOLIDATED FINANCIAL STATEMENTS
FOR FISCAL YEAR 2000                         V
                                    INTRODUCTION





Background
The United States Agency for International Development (USAID) was created in 1961
to advance the United States' foreign policy interests by promoting broad-based
sustainable development and providing humanitarian assistance. USAID has an overseas
presence in over 70 countries, 42 of which have fully operational and formal USAID
missions. In fiscal year 2000, USAID had total obligation authority of $7.5 billion. 4

Under the Government Management Reform Act of 1994, USAID is required to submit
audited financial statements to the Office of Management and Budget (OMB) and
appropriate Congressional Committees. Pursuant to this Act, USAID has prepared for
FY 2000: (1) balance sheet, (2) statement of net cost, (3) statement of changes in net
position, (4) statement of budgetary resources, (5) statement of financing, (6) notes to the
principal statements, and (7) other accompanying information.



Objectives
OMB Bulletin No. 01-02 and related GAO guidance establish the minimum audit
requirements for federal financial statements. For fiscal year 2000, this Bulletin required
us to:

•	      Determine whether USAID's principal financial statements present fairly in all
        material respects, in conformity with federal accounting standards, the (1) assets;
        (2) liabilities and net position; (3) net costs; (4) change in net position; (5)
        budgetary resources; and (6) reconciliation of net costs and budgetary obligations.

•	      Report on USAID's internal control structure related to these financial statements,
        as well as, to the internal control structure related to the performance measures
        contained in the "USAID's Management Discussions and Analysis" section.



        4
                  See Appendix V for USAID’s Consolidated Financial Statements for Fiscal year 2000
including its “Financial Report MD&A” section.


                                                  1

•	     Report on USAID's compliance with laws and regulations that could have a direct
       and material effect on the principal statements, and any other applicable laws and
       regulations.

For the first objective, in agreement with USAID management, our fiscal year 2000 audit
focus was placed on the following material line items in USAID’s balance sheet for
which our audit risk was assessed as high: (1) Fund Balance with the U. S. Treasury; (2)
Credit Programs; (3) Advances and Prepayments; and (4) Accounts Payable. If we were
unable to determine whether, at a minimum, the financial statements were fairly
presented, we would, to the extent practicable, obtain sufficient evidence about closing
balances to help enable us to form an opinion on subsequent year’s financial statements.
We were not able to fully implement this objective because the scope of our work was
impaired.

For the second objective mentioned above, we attempted obtained an understanding of
the components of USAID’s internal controls relating to the existence and completeness
assertions relevant to the financial statements and the performance measures included in
the Management Discussion and Analysis.

The third objective mentioned above included determining whether USAID's financial
management systems comply substantially with federal requirements for financial
management systems, applicable federal accounting standards, and the U.S. Standard
General Ledger at the transaction level, as required by Section 803(a) of the Federal
Financial Management Improvement Act (FFMIA) of 1996. The scope of our work
included those financial management systems that were operational in USAID during
fiscal year 2000. To make this determination, we followed the implementation guidance
for FFMIA issued by the OMB on September 9, 1997.

In accordance with the OMB audit requirements for federal financial statements, this
combined audit report includes our separate reports on USAID’s financial statements,
internal control structure, and compliance with applicable laws and regulations.




                                            2

            REPORT ON USAID’S CONSOLIDATED

                FINANCIAL STATEMENTS




Based upon an agreement between USAID’s Management and the Office of the Inspector
General, we audited USAID’s Financial Statements for the fiscal year ended
September 30, 2000. USAID Management is responsible for the preparation of its
financial statements; our responsibility is to express an opinion on the financial
statements based on our audit. The opinions we can issue are:

•	     Unqualified—if we find that the financial statements are presented fairly in all
       material aspects.

•	     Qualified— if we find that the financial statements are fairly presented except for
       a material departure or exception that is explained in the report.

•	     Adverse— if we find that the financial statements are not fairly presented.

Instead of issuing one of the three above opinions, we may choose not to give an opinion
because an audit of sufficient scope could not be conducted due to limitations or the
condition of the financial records.

We were unable to conduct our audit in accordance with generally accepted government
auditing standards and the OMB Bulletin 01-02 because we were unable to obtain
reasonable assurance about the financial information presented in USAID’s fiscal year
2000 Financial Statements. Those standards require that we plan and perform the audit to
obtain reasonable assurance about whether USAID’s financial statements were free of
material misstatements. An audit includes examining, on a test basis, evidence
supporting the amounts and disclosures in the financial statements. An audit also
includes assessing the accounting principles used and significant estimates made by
management, as well as evaluating the overall financial statement presentation.

We could not express an opinion on USAID's financial statements for the fiscal year
ended September 30, 2000, because our audit scope was impaired. USAID has not
implemented adequate accounting and financial management systems to produce
complete, reliable, timely and consistent financial statements without material year-end
adjustments. We found that USAID has changed its methodology for calculating accrued
expenses. However, USAID had not changed its methodology and systems for valuing
advances to grantees. As a result, USAID made about $3 billion in net adjustments (see



                                            3

Table 1 below) to the figure reported in its general ledger. We were unable to fully
evaluate the reasonableness of those adjustments to determine the reliability of the
balances reported.

             USAID’s Net Adjustments to Balance Sheet Items Reviewed

                                     Net Adjusted
               Line Item            Amounts (Billion)          Statements Affected
    Accounts Payable                    $2.350          Balance Sheet, Net Cost
    Advance and Prepayments              0.767          Balance Sheet, Net Cost
    Credit Programs                      0.267          Balance Sheet, Net Cost
    Fund Balance with Treasury           0.018          Balance Sheet, Budgetary Resources
    Total Year-end Adjustments          $3.402
                                          Table 1

In addition, USAID had not completed its implementation of the recommendations made
to correct previously identified deficiencies. The uncorrected system deficiencies created
a consequential risk that the financial statements, including the performance MD&A
information, could contain material misstatements.

OIG and USAID officials agreed to focus the fiscal year 2000 audit efforts on the
material line items on USAID’s balance sheet. We issued a series of reports that
communicated the results of our audits conducted on selected line items reported in
USAID’s fiscal year 2000 balance sheet. In the individual reports, we made
recommendations, when applicable, to improve USAID’s ability to calculate and report
its balances at fiscal year-end (See Appendix IV for a listing of reports issued for fiscal
year 2000). Accordingly, we have not expressed an opinion on the fairness of the
financial statements.

Finally, with respect to the internal controls relating to the performance information
reported in the Management Discussion and Analysis (MD&A), we attempted to gain an
understanding of the design of the significant internal controls relating to the existence
and completeness assertions as required by OMB Bulletin No. 01-02. However, our
scope was impaired because we selected and reviewed a sample of Agency level
performance indicators, which USAID officials informed us would be reported in the
MD&A. Subsequently—after our fieldwork was almost complete—USAID officials
informed us that the performance information previously identified would not be reported
in the MD&A, but USAID officials instead decided to report on operating unit level
indicators in the MD&A.




                                              4

Based on OIG performance audits, 5 we were able to comment on the internal controls
over the performance information reported in the MD&A. Based on those audits, we
know that USAID’s operating units did not consistently report credible performance
information—which was the basis for the MD&A. Also, based on our limited review, the
MD&A was not prepared in accordance with OMB Bulletin No. 97-01. 6

The following Report on Internal Controls briefly discusses three significant problems:

        1.	      The financial management systems at USAID cannot produce complete,
                 reliable, timely and consistent financial statements without material year­
                 end adjustments. (See table 1)

        2.	      Computer security deficiencies continue to exist.

        3.	      Internal controls over MD&A performance information must be
                 strengthened.

As described in the preceding paragraphs, the scope of our work was impaired to such an
extent that we are unable to express and do not express an opinion on the accompanying
un-audited financial statements, and their related footnotes, due to time constraints, we
were unable to evaluate the reasonableness of the material balance sheet adjustments
made by USAID. The table on the preceding page shows the adjustments that were made
to USAID’s account balances at the end of fiscal year 2000.




Office of Inspector General
February 26, 2001




        5
                   Audit of USAID/Malawi's Performance Monitoring for Indicators Appearing in the
Fiscal Year 2002 Results Review and Resource Request Report; (Report No. 4-612-01-001-P), issued
October 19, 2000; Audit of Global Bureau's Center for Economic Growth and Agricultural Development's
Performance Monitoring for Indicators Appearing in the Fiscal Year 2002 Results Review and Resource
Request Report; (Report No. 9-000-00-003-P), issued September 26, 2000; Audit of USAID/Ghana's
Performance Monitoring for Indicators Appearing in the FY 2001 Results Review and Resource Request;
(Report No. 7-641-00-007-P), issued June 30, 2000; Audit of USAID/Brazil's Performance Monitoring for
Indicators; (Report No. 1-512-00-005-P), issued July 17, 2000.
         6
                   We reviewed and are commenting on the draft MD&A dated November 14, 2000.
Subsequent MD&As have been received; however, the contents of those subsequent MD&As have not
affected the results of our initial review.


                                                  5

                           REPORT ON USAID’S

                          INTERNAL CONTROLS




As stated previously, we attempted to audit the accompanying financial statements of
USAID as of September 30, 2000 but our report on the financial statements disclaims an
opinion on whether it was presented fairly because the scope of our work was impaired.
In planning and performing our work to report on USAID’s financial statements, we
obtained an understanding of the internal control structure by:

       •   reviewing the design of relevant policies and procedures,

       •   determining whether they have been placed in operation, and

       •   assessing control risk.

We gained an understanding of the internal controls only to determine the extent of our
auditing procedures for reporting on USAID’s fiscal year 2000 financial statements. We
do not express an opinion on USAID’s overall internal control structure.

As a result of problems noted in previous years’ audits, and because USAID had not yet
completed actions to correct these deficiencies, the OIG agreed with USAID to focus the
fiscal year 2000 audit efforts on the material line items on the balance sheet, the
Management Discussion and Analysis, and compliance with applicable laws and
regulations. We issued a series of reports that communicated the results of our audits
conducted on the selected line items reported in USAID’s fiscal year 2000 Financial
statements. In the individual reports, we made recommendations to improve USAID’s
ability to calculate and report its balances at fiscal yearend (See Appendix IV for a listing
of reports issued for fiscal year 2000).


Background on Internal Controls
Under the Accounting and Auditing Act of 1950, the Federal Managers' Financial
Integrity Act (FMFIA) of 1982 and implementing policies established by the Office of
Management and Budget (OMB), USAID's management is responsible for establishing
and maintaining effective systems of internal control. To fulfill this responsibility,


                                              6

management must make estimates and judgments to assess the expected benefits and
related costs of internal control policies and procedures. The General Accounting Office
has issued Standards for Internal Controls in the Federal Government that executive
agencies must follow in establishing and maintaining an effective internal control
structure as required by law and executive branch policies.

The objectives of an internal control structure, according to the OMB's Bulletin No.
01-02, are to provide management with reasonable assurance about the:

       •   Reliability of financial reporting—transactions are properly recorded,
           processed, and summarized to permit the preparation of the Principal
           Statements in accordance with the federal accounting standards, and the
           safeguarding of assets against loss from authorized acquisition, use, or
           disposition.

       •	 Reliability of performance reporting—transactions and other data that support
          reported performance measures are properly recorded, processed, and
          summarized to permit the preparation of performance information in
          accordance with criteria stated by management.

       •	 Compliance with applicable laws and regulations—transactions are executed
          in accordance with (a) laws governing the use of budget authority and other
          laws and regulations that could have a direct and material effect on the
          Principal Statements, and (b) any other laws, regulations and government-
          wide policies identified by OMB in Appendix C of Bulletins 01-02.

Because of inherent limitations in any internal control structure, errors or irregularities
may still occur and not be detected. Also, predicting whether the internal controls will be
effective in the future is risky because changes in conditions may require additional
controls and the effectiveness of the design and operation of policies and procedures may
deteriorate.



Scope of Our Consideration of USAID’s Internal Controls

We obtained an understanding of the design of relevant policies and procedures and
whether they had been placed in operation to meet the objectives of an internal control
structure noted above. We also assessed control risk for the areas noted above.

Because USAID had not completed actions to correct deficiencies noted in previous
audits 7 we focused our fiscal year 2000 audit efforts on selected material line items
reported on its balance sheet, the MD&A, general controls, and follow-up on prior
recommendations.

       7
               See Appendix III of this report.


                                                  7

We do not express an opinion on the internal control structure because the purpose of our
audit was to: (1) determine our auditing procedures for reporting on the financial
statements, and (2) identify areas where we could assist the agency with improving its
accounting policies and procedures and the reliability of its financial reports. We
assessed control risk, performed tests, and issued a series of reports that communicated
the results of our audits conducted on the selected material line items and made
recommendations to improve USAID’s ability to calculate and report its balances at fiscal
year end (See Appendix IV, for a listing of reports issued for fiscal year 2000). In
assessing risks, we considered material internal control weaknesses identified by
USAID’s management in its Accountability Report, and our prior and current audit
efforts related to financial and internal control matters.

We do not express an opinion on the performance information identified in the MD&A
section of USAID's financial statements, as the expression of such an opinion was not the
purpose of our work. Although OMB requires the OIG to gain an understanding of
internal controls over the performance information and report deficiencies that come to
our attention, scope impairments prevented us from conducting our work as required.
Nevertheless, we are able to comment on the internal controls related to the performance
information reported in the MD&A. (See ''Internal controls over MD&A performance
information must be strengthened" section of this report.)

Even though our work was impaired as discussed above, we noted certain matters
involving the internal control structure and its operation that we consider to be reportable
conditions under standards established by the American Institute of Certified Public
Accountants and OMB Bulletin No. 01-02. Reportable conditions involve matters
coming to our attention relating to significant deficiencies in the design or operation of
the internal control structure that, in our judgment, could adversely affect USAID
management's ability to demonstrate that the control objectives noted above were met.

Some are serious enough to be considered material weaknesses. A material weakness is a
condition in which the design or operation of one or more internal control elements does
not reduce to a relatively low level the risk that errors or irregularities in amounts that
would be material to the financial statements may occur and not be detected promptly by
employees in the normal course of performing their duties.

The following section briefly summarizes our findings for those matters that we consider
reportable conditions and material weaknesses. Our work would not necessarily disclose
all material weaknesses in the internal control structure.




                                             8

Audit Findings
USAID Has Made Improvements In Its
Financial Management Systems, But
Additional Corrective Actions Are Needed

USAID has made improvements in its financial management systems, but additional
corrective actions are needed to produce complete, reliable, timely, and consistent
financial information.8 USAID had not fully implemented corrective actions previously
reported and, as a result, made material year-end adjustments that may make the financial
statements unreliable. We found that USAID has made improvements in reporting its
Credit Program Receivables and reduced the differences between its records and the U.S.
Treasury’s records. However:

        •	       Financial management systems still need improvements,

        •	       Computer security deficiencies continue to exist, and

        •	       Internal controls over MD&A performance information must be
                 strengthened.

We have provided additional information regarding these areas below. USAID reported
most of these material weaknesses in its fiscal year 1998, 1999, Accountability Reports
and in its 2000 Accountability Report, which will be issued on March 1, 2001. USAID
has also properly reported the systems deficiencies to OMB.


        USAID’s Financial Management

        Systems Still Need Improvements


Over the past year, USAID has continued to strengthen its financial management systems
related to reporting credit program receivables and fund balance with the U.S Treasury.
However, improvements are still needed for: (1) calculating and reporting accounts
payable and (2) accounting for advances to grantees with letter-of-credit agreements.
Appendix IV lists the reports that address each area in detail.




        8
                     See Appendix III for the status of uncorrected findings and recommendations from prior
audits that affect the current audit objectives.


                                                     9

Reporting Credit Program Receivables - USAID continues to improve its processes
and procedures for reporting credit program receivables. However, despite its
improvements in this area, we identified significant discrepancies between the loan
information maintained by Riggs Bank 9 and USAID’s records. At September 30, 2000,
USAID had absolute discrepancies totaling approximately $459 million ($267 million
net) between its general and subsidiary ledgers.

These discrepancies occurred because:

�   Riggs Bank posted adjustments to its loan system throughout fiscal years 1999 and
    2000, under USAID direction, without adequate support.

�   USAID used the September 30, 1999, closing balances from its legacy systems and
    adjusted those balances with only the current year activities recorded in Riggs Bank’s
    loan system to prepare its Credit Program trial balance for fiscal year 2000. USAID
    did not record all the adjustments posted to the Riggs Bank loan system during 1999
    and 2000.

USAID identified and reconciled approximately $366 million ($182 million net) of the
$459 million differences, which existed between its subsidiary and general ledger.
USAID made the necessary adjustments for these differences. With our concurrence,
USAID also posted a one-time unsupported adjustment of approximately $93 million
($85 million net) for the remaining unreconciled differences between its general ledger
and its subsidiary ledger. These entries were necessary to bring USAID’s general ledger
into agreement with its subsidiary ledger.

Reporting Fund Balance with the U.S Treasury - USAID has also improved its
internal controls in this area. However, we identified reportable conditions that if
corrected, would enable USAID to provide a more reliable account of its Fund Balance
with the U.S. Treasury and more reliable financial information to its oversight agencies at
fiscal yearend. These reportable conditions do not have a material impact on the USAID
Fund Balance with Treasury line item reported on its financial statements. The
significant reportable conditions are:

        •	 USAID did not consistently and completely reconcile differences, of about
           $18 million, between its records and the U.S. Treasury records, and

        •	 USAID did not consistently comply with OMB reporting requirements for
           submitting quarterly budgetary reports.



        9
                  In 1998, USAID entered into a contract with Riggs National Bank to provide loan
servicing and financial management services for USAID’s loan portfolios. As of October 1, 1999,
USAID’s legacy systems were discontinued and Riggs National Bank’s loan system became USAID’s
subsidiary ledger for its loan portfolio.


                                                 10

USAID needs to continue researching and resolving all outstanding reconciling items and
develop and implement procedures to obtain the necessary information needed from its
overseas missions to submit quarterly budget reports to OMB.

Calculating and Reporting Accrued Expenditures and Accounts Payable – We were
unable to determine whether USAID properly calculated and reported accounts payable
to permit the preparation of reliable financial statements as of September 30, 2000.
Initially, USAID’s plan was to calculate its accounts payable using a statistical model for
its Washington activities based on the obligations recorded in the New Management
System (NMS). However, USAID officials abandoned this plan because of uncertainties
about the reliability of the scheduled completion dates for the grants and contracts
recorded in NMS, needed for the model.

On December 12, 2000, USAID informed us that a new methodology was used to
calculate accounts payable, which resulted in an adjustment in excess of $1.9 billion.
Subsequently, on December 20, 2000, USAID informed us that this methodology was
further modified, and an additional adjustment of about $0.4 billion was recorded, for a
total adjustment of approximately $2.3 billion. The amount of substantive testing needed
to determine the reasonableness of the new methodology and the reliability of the
adjustment would have been prohibitive and unattainable by the statutory deadline for
submitting the audited financial statements to the Office of Management and Budget.
Accordingly, we were unable to determine the reliability of the amounts reported for
accounts payable. This is unacceptable under any conditions.

We were unable to determine whether USAID’s methodology for calculating accounts
payable for its Washington activities complied with the generally accepted accounting
principles. Under USAID’s planned statistical methodology, accounts payable estimates
calculated for its Washington activities would not be supported by actual or constructive
receipt of goods and services.

Under its new methodology, USAID’s Office of Financial Management performed a
trend analysis to establish its accounts payable balance for fiscal year 2000 based on the
accounts payable calculated and reported during fiscal years 1997 through 1999 and the
disbursements for the subsequent accounting periods. As a result of the new
methodology, for fiscal year 2000, USAID made an adjustment in excess of $2.3 billion
to more accurately report accounts payable balances in its financial statements. Due to
time constraints, we were unable to determine the reasonableness of the new
methodology and the reliability of the adjustment.

Accounting for Advances to Grantees – We were unable to determine whether
USAID’s advance account balance was reliable as of September 30, 2000, because:

       (1)	    USAID’s use of the cash pooling method of accounting for advances may
               hinder its ability to report reliable status of financial and budgetary
               resources at the obligation and appropriation level.




                                            11

        (2)	     USAID did not promptly record 603 grant agreements and modifications,
                 totaling approximately $633 million, in the grant financial accounting
                 system.

        (3)	     USAID transferred unliquidated obligations totaling about $1.3 billion to
                 the Department of Health and Human Service’s Payment Management
                 System without verifying the accuracy of the transferred balances.

        (4)	     USAID did not follow its established policy of performing a monthly
                 reconciliation between the advance subsidiary ledger and its general
                 ledger. At September 30, 2000, there was an unexplained difference of
                 $126 million between USAID’s general ledger and its advance subsidiary
                 ledger. USAID did not know which, if either, had the correct balance.

        (5)	     USAID’s general ledger system did not provide an adequate audit trail for
                 the $1.3 billion advance balance reported.

        (6)	     USAID did not promptly record expenses totaling about $767 million in
                 its general ledger.


USAID agreed with our prior recommendations to change its methodology for disbursing
advance to grantees, which would have corrected items one to four above. However, in
fiscal year 2000, OMB issued a proposed amendment to Circular A-110 that proposed
mandatory requirements for Federal Agencies to offer the pooled advance method to
grantees. Because of this proposed change in regulations, USAID decided, with our
concurrence, that the only practical course of action was to suspend its conversion of
grantees to the obligation method of disbursing advances to grantees pending a final
ruling by OMB. Therefore, USAID continues to use the pooled method for disbursing
advances to grantees.

To date, OMB has not issued a final ruling on the pooling of advance issue. However,
per the Federal Register Notice on the Federal Financial Assistance Management
Improvement Act of 1999 dated January 17, 2001, the CFO Council’s Grants
Management Committee is clarifying differing positions on the pooled method issue for
advances and will specify when pooling is applicable.

Mission Activity – For fiscal year 2000, we statistically selected and reviewed financial-
related activities at 10 USAID missions. 10 The reportable conditions identified at the
missions were communicated to management at the individual missions and are not
repeated in this report.




        10
                  The ten missions selected for review were those in Jordan, Egypt, Ghana, Guinea, the
Philippines, Indonesia, Russia, El Salvador, Botswana, and Mozambique.


                                                   12

Computer Security
Deficiencies Continue to Exist

Computer security deficiencies continue to exist at USAID. We have issued several audit
reports 11 identifying certain computer security deficiencies that exposed USAID to
unacceptable risks that resources and sensitive data may not be adequately protected from
loss or destruction. The deficiencies exist because USAID has not implemented an
effective computer security program as required by the Computer Security Act and OMB
Circular A-130 “Management of Federal Information Resources”.

As previously stated, in its Accountability Reports, USAID identified its overall
computer security program and NMS security and access controls as material weaknesses
in its fiscal year 1997 Integrity Act Report, and its Accountability Reports for fiscal years
1998 and 1999. At the date of this report, the NMS security and access controls
weakness is no longer considered a material weakness because USAID made security
improvements to the NMS software, developed a detailed NMS Security Plan and
conducted a comprehensive Security Certification and Accreditation of NMS. Since
1997, USAID has also made progress in developing a computer security program. These
efforts, which include long-term and short-term improvements, are still underway.

The OIG identified general control weaknesses during three of the four audits mentioned
above, which were conducted at USAID/Washington during fiscal year 1999. During
fiscal year 2000, the OIG’s evaluation was based largely on USAID’s progress in
addressing the general control and security deficiencies identified in previous reports.
The review concluded that eleven of the recommendations, from the three general control
audit reports, were not closed until September 2000. More importantly, USAID’s own
computer security assessments identified numerous vulnerabilities through its network
scans of systems located in USAID/Washington and overseas missions. As a result,
USAID’s computer systems and the operations that rely on these systems were vulnerable
to disruption and misuse. Of particular concern is the need to improve and fully test
USAID’s plans for maintaining continuity of operations. In the event of a disaster,
USAID does not have an adequate disaster contingency plan that could affect its
continuing operations.

General controls are the structure, policies, and procedures that apply to an entity's
overall computer operations. These controls create the environment in which application
systems and controls operate. If general controls are weak or ineffective, they severely
diminish the reliability of controls associated with individual applications. Without
effective general controls, application controls may be rendered ineffective by
circumvention or modification.
        11
                  Audit of USAID’s Progress Implementing a Financial Management System That Meets
Federal Financial Management Improvement Act Requirements (Audit Report No. A-000-99-003-P),
issued March 1, 1999: Audit of General Controls Over USAID’s Mainframe Computer Environment (Audit
Report No. A-000-99-004-P), issued March 1, 1999: Audit of General Controls Over USAID’s Client-
Server Computer Environment (Audit Report No. A-000-99-005-P), issued on March 1, 1999; and Audit of
USAID’s Actions to Correct Financial Management System Planning Deficiencies (Audit Report No. A­
000-00-003-P), issued August 24, 2000.


                                                13

Progress Correcting Financial Management System Planning Deficiencies - In
August 2000, an OIG audit 12 disclosed that USAID made progress in correcting the five
financial management system planning deficiencies identified in a prior audit 13 , but only
two of the five deficiencies have been fully corrected. The remaining three deficiencies
have been only partially corrected by USAID management.

The five planning deficiencies that were identified in the March 1, 1999, FFMIA audit
report included the following:

        (1)	 the lack of an agency-wide information technology target architecture,

        (2)	 the lack of a financial management system portfolio that met OMB’s
             guidelines for selecting information technology investments,

        (3)	 the lack of a modular acquisition strategy,

        (4)	 an inadequate financial management system remediation plan, and

        (5) 	 the lack of a program management office to oversee the development of an
              integrated financial management system.

Since we reported the above deficiencies, USAID has developed (1) an agency-wide
information technology target architecture, (2) a financial management system portfolio,
(3) a modular acquisition strategy, and (4) a financial management system remediation
plan. USAID also established a program management office to oversee the development
of an integrated financial management system.

However, we found that USAID’s financial management system portfolio was not
developed in accordance with OMB guidelines, and that the remediation plan was not
adequate. In addition, we found that the lines of authority for the program management
office need to be clarified.

The OIG’s analysis of the FFMIA remediation plan in the USAID CFO FY 2002
document 14 disclosed that USAID’s remediation plan does not fully comply with OMB
Circular No. A-11 requirements. There was significant improvement from the prior
year’s plan in disclosing resources, remedies, and target dates; but the world-wide
deployment of the core financial system plan does not have specific target dates and
required resources. The remediation plan states that USAID will achieve compliance

        12
                  Audit of USAID’s Actions to Correct Financial Management System Planning
Deficiencies (Audit Report No. A-000-00-003-P), issued August 24, 2000.
         13
                  Audit of USAID’s Progress Implementing a Financial Management System That Meets
Federal Financial Management Improvement Act Requirements (Audit Report No. A-000-99-003-P),
issued March 1, 1999.
         14
                  USAID CFO FY 2002 Financial Management Budget Justification, dated January 2001.


                                                14

with FFMIA in FY 2003 by implementing an integrated financial management system at
USAID/Washington and 2 pilot Missions; however, USAID may not achieve this goal
until the system is implemented world-wide. In addition, the plan does not identify
officials responsible for bringing the system into compliance as required in the July 19,
2000 revision of OMB Circular No. A-11, “The Preparation and Submission of Budget
Estimates”.

The January 4, 2001, revision to Implementation Guidance for FFMIA of 1996, effective
for financial and audit reports for fiscal year 2000, requires auditors to report on agency
failures to meet deadlines in remediation plans. Our comparison of the prior and current
year’s remediation plans indicates that USAID will not meet milestones outlined in the
previous year’s plan. See table 2 below:

                Comparison of Prior and Current Year’s Remediation Plans

                     System                   FY 2000 Target                        FY 2001 Target
                                                   Dates                                 Dates
Core Financial System, USAID/W              4th Quarter 2000                       *1st Quarter 2001
Managerial Cost Accounting System           2000                                   2002
Procurement System                          2002                                   2003
Core Financial System at 2 Pilot Missions March, 2001                              4th Quarter 2001
Core Financial System World-wide            4th Quarter 2002                       None
* Actual deployment date	            Table 2

USAID officials stated that the slippage of the target dates was primarily due to a re­
evaluation of their product acquisition process and a decision to mitigate the risk of
proceeding too quickly with the implementation of a complex and key system.


Internal Controls Over MD&A
                                                                15
Performance Information Must be Strengthened

USAID did not prepare the MD&A in accordance with OMB Bulletin No. 97-01, as
amended, "Form and Content of Agency Financial Statements," dated October 16,1996.
For example, the MD&A did not:

    •	 Compare actual results to goals or benchmarks or

    •	 Report results that relate to the performance measures developed in USAID’s
       1997 Strategic Plan16 , which was current for fiscal year 2000.



         15
                  The OIG will issue a separate audit report that will further explain the details relating to
this section.
         16
                  The USAID 1997 Strategic Plan was subsequently revised and the Agency began
         reporting against the objectives of the individual operating units.


                                                      15

The Chief Financial Officer (CFO) worked collaboratively with USAID's Bureau for
Policy and Program Coordination (PPC) to develop a plan to prepare the MD&A for
fiscal year 2000. As agreed to in the plan, PPC provided the CFO with USAID's draft
Performance Overview. 17 However, because USAID's draft Performance Overview did
not include all of the information needed for the MD&A, the CFO was not able to
prepare the MD&A in accordance with OMB Bulletin No. 97-01. As a result, USAID's
MD&A for fiscal year 2000 did not provide financial statement users with a fair
presentation of its program performance.

In addition, as discussed previously, we were not able to review the performance
information because of the scope impairment. However, the OIG is conducting a series
of audits relative to the operating units’ performance reports—which forms the basis of
the performance information reported in the MD&A. Based on the audits completed to
date, 18 we determined that the operating units did not consistently report credible
performance information as required by Automated Directives System E203.5.5,
"Performance Monitoring"19 . Credible performance information was not consistently
reported because the operating units needed to develop and implement a proper system of
internal controls for monitoring program performance. Specifically, operating units
needed to prepare performance-monitoring plans and perform data quality assessments—
two key elements of USAID's performance monitoring system. As a result of USAID's
reliance on the operating units' performance information, the MD&A may not
consistently provide financial statement users with credible performance information for
decision-making purposes. 20




Office of Inspector General
February 26, 2001




         17
                   The Performance Overview, a Government Performance and Results Act of 1993
document, is intended to discuss the performance of USAID’s programs in fiscal year 2000.
         18
                   Audit of USAID/Malawi's Performance Monitoring for Indicators Appearing in the
Fiscal Year 2002 Results Review and Resource Request Report; (Report No. 4-612-01-001-P), issued
October 19, 2000; Audit of Global Bureau's Center for Economic Growth and Agricultural Development's
Performance Monitoring for Indicators Appearing in the Fiscal Year 2002 Results Review and Resource
Request Report; (Report No. 9-000-00-003-P), issued September 26, 2000; Audit of USAID/Ghana's
Performance Monitoring for Indicators Appearing in the FY 2001 Results Review and Resource Request;
(Report No. 7-641-00-007-P), issued June 30, 2000; Audit of USAID/Brazil's Performance Monitoring for
Indicators; (Report No. 1-512-00-005-P), issued July 17, 2000.
         19
                   ADS E203.5.5 was superceded by sections of ADS 201 and 203 in August 2000.
However, ADS E203.5.5 was effective at the time the performance reports were prepared.
         20
                   This finding is based on reports already issued which contained recommendations that are
not repeated in this report.


                                                    16

                REPORT ON USAID COMPLIANCE





We attempted to review USAID’s financial statements for the year ended September 30,
2000. Our report does not provide an opinion on the financial statements. Our objective
was to determine whether the account balances reported on USAID’s fiscal year 2000
financial statements were accurately stated in all respects. USAID management is
responsible for compliance with applicable laws and regulations related to its financial
statements.

Although we were unable to fully audit and report on USAID’s compliance with laws and
regulations because of the limited scope of our review, instances of potential material
noncompliance came to our attention with regards to the requirements of the following:

•	     Chief Financial Officers Act of 1990

•	     Federal Financial Management Improvement Act of 1996

•	     Computer Security Act of 1987

We have reported other instances of noncompliance with applicable laws and regulations
in the internal control section of this report. The following sections discuss instances of
potential noncompliance with laws and related regulations listed above.


Chief Financial Officers Act of 1990
USAID has not fully delegated sufficient responsibilities and authority to the Chief
Financial Officer (CFO) to successfully implement an integrated financial management
system required by the Chief Financial Officers Act of 1990 and executive branch policy.

The Chief Financial Officers Act of 1990 (Public Law No. 101-576) requires each federal
agency's CFO to develop and maintain an integrated financial management system,
including financial reporting and internal controls which:

•	     Comply with applicable accounting principles, standards, and requirements, and
       internal control standards.




                                            17

•	      Comply with such policies and requirements as may be prescribed by the Director
        of the Office of Management and Budget (OMB).

•	      Comply with any other requirements applicable to such systems.

•	      Provide for: (1) complete, reliable, consistent, and timely information which is
        prepared on a uniform basis and which is responsive to the financial information
        needs of agency management; (2) the development and reporting of cost
        information; (3) the integration of accounting and budgeting information; and (4)
        the systemic measurement of performance.


Federal Financial Management Improvement Act of 1996
The Federal Financial Management Improvement Act of 1996 (FFMIA) requires USAID
to implement and maintain a financial management system that complies substantially
with: (1) Federal requirements for an integrated financial management system; (2)
applicable Federal accounting standards; and (3) requirements to post transactions to the
United States Standard General Ledger at the transaction level. 21 These requirements are
detailed in OMB Circular No. A-127, Financial Management Systems. Section 7 of this
Circular identifies the requirements or characteristics that Federal financial management
systems should possess. Other policy documents further detail these requirements. 22

The FFMIA also requires that our audit of USAID's financial statements report on
whether the financial management system complies with the above mentioned accounting
and system requirements. The following information summarizes USAID’s
noncompliance with those requirements.

        Nature and Extent of Noncompliance

During fiscal year 2000, USAID's financial management systems did not substantially
comply with the FFMIA's accounting and system requirements. Although USAID
managers have committed to follow disciplined practices to modernize USAID systems
and have taken several steps to do so, significant improvements are not achievable until
existing systems are replaced or modernized. As a result, during fiscal year 2000,
USAID's financial management systems did not comply substantially with: (1) federal
financial management system requirements, (2) applicable federal accounting standards,


        21
                  In this section, we report on USAID's compliance with Federal requirements for financial
management systems rather than its compliance with the Act itself.
         22
                  Office of Management and Budget's Circulars No. A-130, Management of Federal
Information Resources, No. A-134, Financial Accounting Principles and Standards, No. A-11, Preparation
and Submission of Budget Estimates , and No. A-34, Instructions on Budget Execution; U.S. Treasury's
Treasury Financial Manual. In particular, the Joint Financial Management Improvement Program has
published several documents describing detailed functional requirements that systems should possess to
perform effectively.



                                                   18

and (3) requirements that transactions be posted to the United States Standard General
Ledger at the transaction level as required by FFMIA.

Financial management systems' deficiencies that we first reported during fiscal year 1997
continue to exist. 23 This occurred because USAID’s New Management System (NMS)
did not operate effectively. Therefore, USAID has had to rely on a combination of
outmoded legacy systems, informal and unofficial records maintained by individual
managers or organizational units, and NMS--which suffers from technical and
operational problems.

However, during fiscal year 2000 and 2001 USAID installed, configured, tested, and
readied a new, core financial system software. This new system, Phoenix, began
supporting Washington financial operations on December 15, 2000. Key financial data
including obligation, expenditure, and loan information have been migrated to the new
system.

Federal Financial Management System Requirements – USAID’s financial
management systems did not substantially comply with Federal financial management
system requirements. These requirements are designed to enable agencies to provide
complete, reliable, timely, and consistent information to decision makers and the public.
Agencies, including Treasury and OMB, need this information to: (1) carry out their
fiduciary responsibilities; (2) deter fraud, waste, and abuse; (3) facilitate efficient and
effective delivery of programs; and (4) hold agency managers accountable for the way
government programs are managed. The Congress needs this information to oversee
government operations, and the public, to exercise their right of access to government
information. Thus, a key objective of financial management systems is to ensure that
reliable financial and program performance data are obtained, maintained, and reported.

During fiscal year 2000, our audits and USAID’s management assessments confirmed the
continuing existence of financial management system deficiencies that we reported
during fiscal year 1997. 24 As a result, in fiscal year 2000, USAID's financial management
systems did not substantially comply with Federal financial management system
requirements. For example, USAID:

        •	 Lacked an agency-wide classification structure, which standardizes data
           definitions and formats for financial management systems.

        23
                   Audit of the Extent to Which USAID's Financial Management System Meets
Requirements Identified in the Federal Financial Management Improvement Act of 1996 (Audit Report No.
A-000-98-003-P) issued March 2, 1998.
          24
                   Audit of the Worldwide Deployment of the New Management System (NMS), (Audit Report
No. A-000-97-004-P), issued March 31, 1997, Audit of USAID's Efforts to Resolve the Year 2000 Problem,
(Audit Report No. A-000-97-005-P), issued July 11, 1997; Audit of USAID's Compliance with Federal
Computer Security Requirements, (Audit Report No. A-000-97-008-P), issued September 30, 1997; Audit of the
Internal Controls for the Operational New Management System, (Audit Report No. A-000-97-009-P), issued
September 30, 1997, and Audit of the Status of USAID's New Management System (NMS), (Audit Report No.
A-000-97-010-P), issued September 30, 1997.



                                                   19

       •	 Relied on multiple incompatible systems that cannot exchange data and thus,
          did not have an integrated financial management system.

       •	 Had not implemented effective computer security controls.

       •	 Did not have a financial system that met Joint Financial Management
          Improvement Program requirements to (a) support the Prompt Payment Act,
          (b) support external reporting needs, and (c) ensure that costs are accumulated
          and reported with proper matching of periods, segments, and outputs.

       •	 Had not implemented an effective accrual methodology.

       •	 Did not have a financial system able to attribute costs to organizations,
          locations, projects, programs, or activities.

       •	 Did not record accounts receivable in accordance with the U.S. Standard
          General Ledger at the transaction level.

Federal Accounting Standards – USAID's financial management systems may not
comply with applicable Federal accounting standards. Specifically, we were unable to
determine whether USAID financial management systems complied with the Statements
of Federal Financial Accounting Standards No. 1, Accounting for Selected Assets and
Liabilities. However, we determined that USAID financial management systems did not
comply with Statements of Federal Financial Accounting Standards No. 4, Managerial
Cost Accounting Concepts and Standards for the Federal Government.

       Accounting For Selected Assets and Liabilities

Statement of Federal Financial Accounting Standard No. 1 states that when an entity
accepts title to goods, whether the goods are delivered or in transit, the entity should
recognize a liability for the unpaid amount of the goods. It adds that if invoices for those
goods are not available when financial statements are prepared, the amounts owed should
be estimated. We were unable to determine whether USAID’s methodology for
calculating accrued expenditures and account payable for its Washington activities
complied with generally accepted accounting principles.

USAID initially planned to use a statistical model to calculate accounts payable for its
Washington activities based on obligations recorded in the New Management System
(NMS). This plan was abandoned due to USAID's uncertainty, about the accuracy of the
scheduled completion dates for contracts recorded in NMS. As a result of this
uncertainty a new methodology was adopted by USAID to calculated accounts payable.

Under its new methodology, the Office of Financial Management performed a trend
analysis of the accounts payable calculated and reported during fiscal years 1997 through
1999 and the disbursements for the subsequent accounting periods to establish its


                                             20

accounts payable balance for fiscal year 2000. As a result of the new methodology for
fiscal year 2000, USAID made an adjustment in excess of 2.3 billion. Due to time
constraints, we were unable to evaluate this new methodology and the reasonableness of
the adjustment.

       Managerial Cost Accounting Concepts and Standards for the Federal Government

USAID has not implemented Statement of Federal Financial Accounting
Standards No. 4. USAID did not comply with five fundamental elements of managerial
cost accounting:

       •	 Requirement for cost accounting - Each reporting entity should accumulate
          and report the costs of its activities on a regular basis for management
          information purposes.

       •	 Responsibility segments - Management of each reporting entity should define
          and establish responsibility segments.

       •	 Full cost - Reporting entities should report the full costs of outputs in general
          purpose financial reports.

       •	 Inter-entity costs - Each entity's full cost should incorporate the full cost of
          goods and services that it receives from other entities.

       •	 Costing methodology - Cost of resources consumed by responsibility
          segments should be accumulated by type of resource.

This standard requires federal agencies to be able to provide reliable and timely
information on the full cost of their programs, activities, and outputs by responsible
segments. The cost assignments should be performed using one of the following methods
listed in order of preference: (a) directly tracing costs wherever feasible and
economically practicable; (b) assigning costs on a cause-and-effect basis; or (c) allocating
costs on a reasonable and consistent basis. Cost information developed for different
purposes should be drawn from a common data source, and output reports should be
reconcilable to each other. Currently, USAID’s financial system is not able to attribute
costs to organizations, locations, projects, programs, or activities.

Use of United States Standard General Ledger at the Transaction Level - USAID did
not record Accounts Receivable, Mission activities, Non-Expendable Property, and Loans
in accordance with the United States Standard General Ledger at the transaction level.
USAID did not have an integrated accounting and financial management system.

       Cause of Noncompliance

Ineffective processes for managing information resources continue to be the primary
cause of USAID's difficulties deploying effective information systems. USAID reported


                                             21

deficiencies in its processes for managing information resources as a material weakness
in its fiscal year 1997, 1998, 1999, and planned 2000 reports under the Integrity Act.
Although USAID has taken steps to implement disciplined processes, and in September
1999, awarded a contract for a commercial-off-the-shelf core accounting system to
replace its current core accounting system, significant improvements are not achievable
until (1) the new system is installed and made operational and (2) other financially-
related systems are replaced or modernized. However, during FY 2000 and 2001 USAID
installed, configured, tested, and readied a new core financial system software. This new
system, Phoenix, began supporting Washington financial operations on
December 15, 2000.

        Organization Responsible for Noncompliance

The Clinger-Cohen Act of 1996 makes the head of each agency, in consultation with the
Chief Financial Officer (CFO) and Chief Information Officer (CIO), accountable for
establishing policies and procedures that ensure that: (1) agency information systems
provide financial and program performance data for agency financial statements; (2)
financial and performance data are provided to financial management systems in a
reliable, consistent, and timely manner; and (3) financial statements support assessments
and revisions of mission and administrative processes, and measurements of the
performance of information technology investments. Thus, the CFO and the CIO,
reporting to the Administrator, share responsibility for implementing and maintaining an
effective and efficient financial management system that meets Federal requirements for
financial management systems. At USAID, both the CFO and CIO positions are located
within the Management Bureau.

        Recommendations

In our March 1999 audit report, Audit of USAID's Progress Implementing a Financial
Management System that Meets Federal Financial Management Improvement Act
Requirements, 25 we reported weaknesses in USAID's FFMIA remediation plans. That
report recommended that before acquiring any financial management system
components, USAID should:

        1.	 complete an Agency-wide information technology target architecture,

        2.	 use the target architecture to define USAID's financial management system
            portfolio,

        3.	 complete a modular acquisition strategy, and

        4.	 revise its remediation plan and develop sufficiently detailed supporting plans.

        25
                  Audit of USAID's Progress Implementing a Financial Management System that Meets
Federal Financial Management Improvement Act Requirements, (Audit Report No. A-000-99-003-P),
issued March 1, 1999.



                                                22

The report also recommended that USAID establish a strong program management office
with the responsibility, authority, and resources to apply disciplined practices to
implement financial management system improvements.

As of January 31, 2000, USAID had made management decisions to complete a modular
acquisition strategy and to revise its remediation plan and had taken final action to
complete an agency-wide information technology target architecture, to use the target
architecture to define the Agency’s financial management system portfolio, and to
establish a program management office to implement financial management system
improvements.

In an August 2000 report26 , we followed-up on the open recommendations in the above
report. We reported that USAID should:

        (1) Develop and implement a process for selecting information technology
            investments that meets requirements of OMB’s guidelines for Selecting
            Information Technology Investments and GAO’s Executive Guide: Leading
            Practices in Capital Decision Making27 ; and apply the process to prioritize
            USAID’s financial management system investments as part of a portfolio of
            planned information technology investments for USAID’s Fiscal Year 2002
            budget submission to OMB;

        (2) Revise the financial management systems remediation plan to include the
            estimated resources, remedies, and intermediate target dates needed to
            implement an integrated financial management system as required by the
            Federal Financial Management Improvement Act of 1996; and

        (3) Ensure that the Change Management Team and the Office of Financial
            Systems Integration collectively have the responsibilities, the authority, and
            the structure to direct the planning, design, development, and deployment of
            all financial and mixed financial system components of the Integrated
            Financial Management System Program.

We expect to report on our follow up work in the OIG’s next Semiannual Report to
Congress, which will cover the period ending March 31, 2001.

Progress Implementing an Integrated Financial Management System

The Federal Financial Management Improvement Act (FFMIA) requires that each agency
implement and maintain financial management systems that comply with Federal

        26
                 Audit of USAID’s Actions to Correct Financial Management System Planning
Deficiencies, (Audit Report No. A-000-00-003-P), issued August 24, 2000.
        27
                 Executive Guide: Leading Practices in Capital Decision Making (GAO/AMID-99-32,
December 1998)


                                                23

financial management systems requirements including Office of Management and
Budget’s Circular Number A-127. USAID’s goal is to implement an integrated financial
management system in accordance with these requirements by fiscal year 2003.

To attain this goal, USAID established the Office of Financial Systems Integration to
plan for and acquire USAID’s financial systems. This Office, under the direction of the
Chief Financial Officer and Chief Information Officer, is also preparing an overall plan to
modernize USAID’s legacy systems as components of an integrated financial system.

USAID is in the process of implementing an integrated financial management system
using commercial-off-the-shelf software that will comply with the FFMIA and the
Clinger-Cohen Act of 1996. Because USAID’s integrated system will include legacy
system information, USAID will need to convert and move data from existing systems to
the new core financial management system. This new system is being implemented in
several phases.

      •	 Phase I focused on implementing the core financial accounting component of
         the new integrated financial management system (Phoenix). Deployment was
         initially scheduled for completion by October 1, 2000; however, USAID senior
         management delayed the start date. The actual deployment date was not until
         December 15, 2000.

      •	 Phase II is the pilot implementation of the core accounting system at two
         overseas missions (Egypt and El Salvador). This is scheduled for completion
         by April 1, 2001; however, phase II may also be delayed.

      •   Subsequent phases will focus on deploying the new system to other missions.

The OIG identified several concerns with the Phoenix implementation before the
scheduled deployment. These include:

   •	 Compressed and limited software testing of functional requirements and lack of
      parallel operations.

   •	 Delays in migrating data from the old to the new system.

   •	 Incomplete and untested contingency plan to ensure continued operation in the
      event of unforeseen problems occurring before or after deployment.

   •	 Deferral of some system functionality until December 2000 and later.

   •	 Uncertain attendance at user training sessions.

   •	 No process to document the showstoppers and the final decisions authorizing
      deployment of the system.



                                            24

The OIG expressed these concerns and recommended that USAID thoroughly test
Phoenix and work out any operational problems to better assure that the system will
operate effectively and provide reliable information to managers. To address such
concerns, USAID delayed the deployment, took action to conduct more testing, increased
users’ participation, and designed a project tool to assess the operational readiness of
Phoenix.


Computer Security Act of 1987
The Computer Security Act of 1987 (Public Law No. 100-235) requires Federal agencies
to protect information by: (1) identifying sensitive systems, (2) developing and
implementing security plans for sensitive systems, and (3) establishing a training program
to increase security awareness and knowledge of accepted security practices. OMB
Circular No. A-130 contains executive branch policy for implementing this law.

In September 1997, the OIG reported 28 that management deficiencies had prevented
USAID from implementing an effective computer security program as required by the
Computer Security Act and the Office of Management and Budget. These deficiencies
exposed USAID to high risks that resources will not be adequately protected from fraud
or misuse. The deficiencies occurred because USAID did not implement an adequate
system of management controls to support an effective computer security program. In
this regard, USAID had not: (1) developed an organizational structure that clearly
delegated responsibility and provided appropriate authority; (2) established planning
policies needed to provide a foundation for an effective security program; and (3)
implemented key management processes to ensure that security requirements were met.

The OIG conducted a series of audits of USAID's general computer security controls
during fiscal year 1999 29 . The OIG found that USAID had not implemented effective
general controls over its mainframe, client server (which hosts the NMS), and USAID
Mission computer systems. Specifically, the OIG identified deficiencies in: (1) the
entity-wide security program and management; (2) access controls; (3) application
software development and change processes; (4) segregation of computer system duties;
(5) system software change controls; and (6) continuity of services controls. A primary
reason for ineffective general controls is the lack of an agency-wide security program that
includes clear security responsibilities and agency-wide security processes.


        28
                  Audit of USAID’s Compliance with Federal Computer Security Requirements, (Audit
Report No. A-000-97-008-P), issued September 30, 1997.
         29
                  Audit of USAID/Peru’s General Controls Over the Mission Accounting and Control
System, (Audit Report No. 527-99-001-P), issued December 30, 1998); Audit of Access and System’s
Software Security Controls Over the Mission Accounting and Control System, (Audit Report No. A-000­
99-002-P), issued December 31, 1998; Audit of USAID’s Progress Implementing a Financial Management
System That Meets Federal Financial Management Improvement Act Requirements, (Audit Report No. A­
000-99-003-P), issued March 1, 1999; Audit of General Controls Over USAID’s Mainframe Computer
Environment, (A-000-99-004-P), issued March 1, 1999; and Audit of General Controls Over USAID’s
Client-Server Environment, (A-000-99-005-P), issued March 1, 1999.


                                                25

During fiscal year 2000, the OIG’s review of audit recommendations that were intended
to resolve the above general control weaknesses and USAID’s computer security
assessments confirmed the continuing existence of general control weaknesses. For
example, our review found that nineteen of the twenty recommendations contained in our
1999 audit reports remained open during fiscal year 2000. More importantly, USAID’s
assessment found that computer security vulnerabilities continue to exist at
USAID/Washington and overseas Missions. To illustrate, the assessments conducted at
the overseas missions ranged from high to low risk because local officials did not
consistently implement the security practices.

USAID has made significant progress in developing a program to improve its ability to
protect computerized information. For example, USAID has updated security policies,
developed a security evaluation process that requires certification by USAID
management, developed and conducted on-site risk assessments at six missions, and
performed security evaluations and certifications of NMS. Also, USAID officials have
crafted a Model Information System Security Program. This program provides a
framework for identifying and disseminating to other government agencies a complete set
of ‘best practices’ for implementing an effective computer security program. The
program has been recognized by the Chief Information Officers Council, General
Services Administration, and others, as an innovative and comprehensive approach that
could benefit the entire Federal Government.

Although significant improvements in USAID Information Systems Security have
occurred, much work remains to be done to fully implement an effective computer
security program. USAID estimates that computer security vulnerabilities will not be
fully corrected until 2003.




Office of Inspector General
February 26, 2001




                                          26

                                                                           APPENDIX I
                                                                             Page 1 of 1




                    OIG EVALUATION OF USAID

                    MANAGEMENT COMMENTS




USAID’s management agreed with the findings in this report and commented that they
are pleased to see that the OIG noted the improvements the Agency has made regarding
the two largest assets on the balance sheet�Fund Balance with the U.S. Treasury and
Credit Program Receivables. USAID management further agrees that additional work is
needed to improve the reporting of advances and accounts payable, the other two items
on the balance sheet reviewed by the OIG in the fiscal year 2000 audit. With our
concurrence, USAID’s management is waiting on the decision from the Chief Financial
Officer’s Council Grants Management Committee to determine whether the Agency will
convert all grants from the pooled method to the grant-by-grant basis. For accounts
payable, USAID’s management commented that the $2.3 billion adjusting entry,
developed using a trend analysis, was needed to correct the previously accrual calculated
by the New Management System. USAID will use the same trend analysis to develop its
accounts payable amounts for fiscal year 2001. The OIG plan to review this
methodology and any resulting adjustments in detail during our fiscal year 2001 GMRA
audit.

USAID management noted that they have revised the approach to performance reporting
in response to criticism about the manageability of its strategic plan. The revision was
incorporated in USAID’s fiscal year 2000 Strategic Plan to begin reporting at the
operating unit level in fiscal year 2000. USAID management further recognized our
observation about the credibility of the performance reporting in the fiscal year 2000
Accountability Report. In response to our observation, USAID noted that they are
implementing workshops worldwide for managing, planning, and offering technical
assistance to the operating units to improve quality control of its performance-monitoring
plan. As necessary, the OIG will evaluate the effectiveness of this implementation during
our fiscal year 2001 GMRA audit.

See Appendix II for USAID’s management comments.




                                            1

                                                                                 APPENDIX III
                                                                                    Page 1 of 9




              USAID’S MANAGEMENT COMMENTS





U.S. AGENCY FOR
  INTERNATIONAL
 DEVELOPMENT


                                                         February 16, 2001

MEMORANDUM

TO:               IG/A/FA, Alvin A. Brown

FROM:             M/CFO, Elmer S. Owens

SUBJECT:           Independent Auditor's Reports on USAID's Balance Sheet, Internal Controls,
                  and Compliance's for Fiscal Year 2000, Audit Report No. 0-000-01-00X-F

        Thank you for the opportunity to comment on the subject draft report. We are in general
        agreement with the audit findings and look forward to working with you and your staff to
        remove the remaining barriers impairing your ability to render an opinion on the
        Agency's financial statements.

        In the draft report on internal control, we were pleased to see that you noted the
        improvements the Agency has made regarding the two largest assets on the balance sheet
        (Fund Balance with Treasury and Credit Program Receivables). Agency and contractor
        staff expended significant time, effort and resources to bring these line items up to date.
        As regards the other two balance sheet items, advances and accounts payable, we agree
        that additional work is needed. On the issue of pooled letter of credit advances, we
        cannot proceed to a final solution, as you know, until the Chief Financial officer's
        Council Grants Management Committee concludes its work.

        As for accounts payable, the report noted that we made a $2.3 billion adjusting journal
        entry to more accurately report FY 2000 accrued expenses. This entry was the net
        amount of the entry required to reverse the accrual amounts calculated by the New
        Management System, which we agreed were overstated,
                                                                                   APPENDIX III
                                                                                      Page 2 of 9



and the more accurate amounts we estimated using a trend analysis. Therefor, this entry is better
described as a correcting entry rather than a material year end adjustment. The accrual amounts
for FY 2001 will be developed using the same trend analysis methodology as used for FY 2000.
We hope that your office will be able to initiate the audit work in time to determine the reliability
of the estimates.

        The internal control report also identifies three problems related to performance
reporting. These are: (1) reported results are not related to the performance measures developed
in USAID's 1997 Strategic Plan; (2) actual results are not compared to benchmarks or targets;
and (3) operating units may not be consistently reporting creditable performance information.

        As noted in FY 2000 Accountability Report, the Agency revised it's approach to
performance reporting in FY 2000 to respond to criticism by others, including the OIG, that the
performance goals identified in the 1997 Strategic Plan were beyond its manageable interests.
This revision was incorporated in the Agency's 2000 Strategic and we began reporting against the
objectives of the individual operating units in FY 2000. Your observations about the credibility
of performance reporting in the FY 2000 Accountability Report have been recognized by the
Agency and we are implementing workshop worldwide in Managing for Results and Performance
Measurement Planing and offering expanded technical assistance to the operating units to
improve quality control of performance monitoring plans.

         Thank you and the entire audit team for the professional manner in which the audit was
conducted. We look forward to working with you the FY 2001 GMRA audit, as we move closer
to a clean opinion on the Agency's financial statements.


Cc: A-AA/PPC, K Schofield
    M/CFO, M. Smokovich
    PPC, S. Merrill
    PPC, G. Britan
    M/CFO, T. Cully
    M/FM, D. Ostermeyer
    M/MPI, S. Malone-Gilmer
    M/MPI, K. Schwartz
    M/FM/CAR, T. Vapniarek
    M/FM/CAR, E. White
    M/FM/LM, M. Washington




                                                1300 Pennsylvania Avenue, NW
                                                    Washington, DC 20523
                                                                             APPENDIX III
                                                                                Page 3 of 9




          STATUS OF UNCORRECTED FINDINGS

         AND RECOMMENDATIONS FROM PRIOR

          AUDITS THAT AFFECT THE CURRENT

                  AUDIT OBJECTIVES





Office of Management and Budget’s Circular No. A-50 states that a management
decision on audit recommendations shall be made within a maximum of six months after
issuance of a final report. Corrective action should proceed as rapidly as possible. The
following audit recommendations directed to USAID remain uncorrected and/or final
actions have not been completed as of September 30, 2000. We have also noted where
final action was taken subsequent to fiscal year-end but prior to the date of this report.


Reports on USAID's Financial Statements, Internal
Controls, and Compliance for Fiscal year 1996
Audit Report No. 0-000-97-001-C February 24, 1997

Recommendation No. 1:         We recommend that USAID's Chief Financial Officer:

1.1	   Develop and implement procedures to ensure that journal vouchers for the general
       ledger are properly prepared by accounting staff and reviewed by supervisors;

1.2	   Require that journal vouchers be adequately supported prior to entering the financial
       data into the general ledger; and

1.3	   Provide adequate supervision to ensure that all adjusting entries entered into the
       general ledger system are supported and authorized.

Recommendation is pending final action by USAID


Recommendation No. 2:         We recommend that USAID's Chief Financial Officer:


2.2	   Develop and implement detailed written procedures, which provide adequate
       guidance to the financial management staff for properly recording transactions as
       they occur;
                                                                          APPENDIX III
                                                                             Page 4 of 9
Recommendation is pending final action by USAID


Audit of the Worldwide Deployment of the
New Management System (NMS)
Audit Report No. A-000-97-004-P March 31, 1997

Recommendation No. 2:            We recommend that USAID assign a senior manager to
manage the NMS project reporting directly to the CIO, AA/M, or USAID Administrator.
Direct the project manager to work with the CIO to prepare an implementation plan
identifying the steps, timeframes, and resources needed to: (1) analyze the technical and
implementation problems that currently limit NMS from achieving its full potential; (2)
implement disciplined IRM processes; and (3) identify alternative implementation
strategies, including pilot testing, prototyping, and incremental deployment of NMS
capabilities.

Recommendation is pending final action by USAID

Recommendation No. 3:          We recommend that USAID assign a senior manager to
develop and manage a performance-based acquisition plan that requires the contractor to
deliver a fully functioning system—or a subset of the system—that meets financial
management and USAID requirements.

Recommendation is pending final action by USAID


Audit of USAID’s Compliance with
Federal Computer Security Requirements
Audit Report No. A-000-97-008-P September 30, 1997

Recommendation No. 2:          We recommend that the Acting Assistant Administrator for
Management demonstrate support for an effective computer security program by taking
action to direct the computer security program manager to develop and implement an
effective computer security program by:

2.2	   Ensuring that adequate resources and skills are available to implement the
       program.

2.3	   Revising policies to incorporate a planning process that will provide a sound
       foundation for an effective computer security program.

2.4	   Implementing disciplined processes to ensure compliance with the Computer
       Security Act of 1987 and OMB Circular A-130.

2.5	   Bringing sensitive computer systems, including NMS, into compliance with
       computer security requirements by: (1) assigning security responsibility, (2)
                                                                           APPENDIX III
                                                                              Page 5 of 9
       preparing security plans, (3) completing contingency/disaster recovery plans, (4)
       identifying technical controls, (5) conducting security reviews, and (6) obtaining
       management’s authorization before allowing systems to process data.

Recommendation is pending final action by USAID


Audit of the Internal Controls for the
Operational New Management System
Audit Report No. A-000-97-009-P September 30, 1997

Recommendation No. 1:          We recommend that the Assistant Administrator for
Management design, document, test, and implement a system of internal controls for the
New Management System that complies with the General Accounting Office’s Standards
for Internal Controls in the Federal Government.

Recommendation is pending final action by USAID


Reports on USAID'S Financial Statements,
Internal Controls, and Compliance
for Fiscal years 1997 and 1996
Audit Report No. 0-000-98-001-F March 2, 1998

Recommendation No. 3:          Until USAID implements a compliant accounting and
financial management system, we recommend that the Chief Financial Officer develop and
implement a methodology to accrue expenditures and adjust outstanding advances and
prepayments to ensure that the financial statements are not materially overstated.

Recommendation is pending final action by USAID

Recommendation No. 5:          We recommend that the Assistant Administrator/Bureau for
Policy and Program Coordination establish a common set of indicators for use by operating
units to measure progress in achieving USAID's strategic goals and objectives and that allow
for the aggregation of program results reported by operating units.

Recommendation is pending final action by USAID

Recommendation No. 7:         We recommend that USAID:

7.1	   Establish procedures to ensure (1) operating units report results for the year ended
       September 30 and (2) results reported in the MD&A section of USAID's financial
       statements and Annual Performance Report be clearly shown as achievements for
       that year.

Recommendation is pending final action by USAID
                                                                           APPENDIX III
                                                                              Page 6 of 9



Recommendation No. 8:         We recommend that the Chief Financial Officer:

8.1	   Implement a comprehensive policy that will incorporate an automatic assessment of
       interest charges against all delinquent receivables, and that these assessments are
       actively monitored for managerial and statutory reporting purposes.

Recommendation is pending final action by USAID

Recommendation No. 9:         We recommend that the Chief Financial Officer develop and
implement policies and procedures to ensure adherence to the requirements of the Debt
Collection Act of 1982 and the Debt Collection Improvement Act of 1996. These policies
and procedures should at a minimum ensure that:

9.1	   All billing offices incorporate due process rights into demands for payment;

9.2	   All delinquencies in excess of 180 days are identified in a timely manner, and
       referred to the United States Treasury; and

9.3	   The issuance or guarantee of consumer credit is reported to consumer credit
       reporting agencies.

Recommendation is pending final action by USAID


Audit of the New Management System (NMS) Status
Audit Report No. A-000-98-004-P March 31, 1998

Recommendation No. 1:         We recommend that the Chief Information Officer
complete a detailed analysis of the costs, benefits, and risks to (1) implement commercial
procurement and budget packages and/or (2) use cross servicing for procurement and
budget functions before deciding to repair the NMS Acquisition and Assistance, and
Budget subsystems.

Recommendation is pending final action by USAID


Audit of Access and System Software Security Controls
Over the Mission Accounting and Control System (MACS)
Audit Report No. A-000-99-002-P December 31, 1998

Recommendation No. 1:        We recommend that the Director of IRM strengthen
MACS’ access and system software controls by developing and implementing standards
for access and system software installation and maintenance. These standards should
implement the agency’s policies pertaining to access and system software controls and
                                                                         APPENDIX III
                                                                            Page 7 of 9
thus, provides step-by-step guidance to mission system managers in the implementation
of these controls. These standards should specifically address the controls described in
GAO’s Federal Information System Controls Audit Manual.

Recommendation is pending final action by USAID


Report on USAID’s Financial Statements,
Internal Controls, and Compliance for Fiscal year 1998
Audit Report No. 0-000-99-001-F March 1, 1999

Recommendation No. 1:        Because the Chief Financial Officer lacks the authority
called for in the CFO Act, we recommend that the Chief Financial Officer collaborate
with the Assistant Administrator for Management, Chief Information Officer, and Bureau
For Policy and Program Coordination to:

1.1	   Determine the specific responsibility, authority, and resources needed to meet the
       requirements of the Chief Financial Officers Act of 1990, which assigns the Chief
       Financial Officer responsibility to: (1) develop and maintain an integrated
       accounting and financial management system that meets federal financial system
       requirements, federal accounting standards, and the U.S. Standard General Ledger
       at the transaction level; (2) approve and manage financial management system
       design and enhancement projects; and (3) develop a financial management system
       that provides for systematic measurement of performance.

Recommendation is pending final action by USAID


Audit of General Controls Over USAID’s
Mainframe Computer Environment
Audit Report No. A-000-99-004-P March 1, 1999

Recommendation No. 4:         To clarify security roles and responsibilities, we
recommend that the CIO and CFO work with the Assistant Administrator for
Management to determine the specific assignments of security roles and responsibilities
needed to meet the requirements of the Chief Financial Officers Act of 1990 and OMB
Circular A-130; and specifically delegate appropriate responsibility, authority, and
resources to the Chief Financial Officer, other program managers, and technical and
oversight staff.

Recommendation is pending final action by USAID
                                                                           APPENDIX III
                                                                              Page 8 of 9


Report to USAID Managers on Selected
USAID Internal Controls for Fiscal year 1998
Audit Report No. 0-000-99-002-F March 31, 1999

Recommendation No. 2:     We recommend that USAID’s Office of Financial
Management develop and implement procedures to:

2.1     Conduct, on a timely basis, accurate and complete reconciliation process.

Recommendation is pending final action by USAID

Recommendation No. 6:          Because USAID does not properly identify and record the
letter of credit disbursements, we recommend the Office of Financial Management:

6.1	    Require all requests for advances through the letter-of-credit system include the
        specific obligation number and amount of the advance requested;

6.2	    Identify the record that the advances disbursed through the letter-of-credit system
        against the proper obligation at the time of the disbursement; and

Recommendation is pending final action by USAID

Recommendation No. 10:        We recommend that USAID’s Bureau for Policy and
Program Coordination:

10.2	   Develop internal controls for identifying the full costs (USAID program and
        operating expenses and funding by other donors and host countries) of USAID
        programs, activities, and outputs.

Recommendation is pending final action by USAID


Audit on USAID’s Credit Programs and
Related Internal Controls Audit Report
No. 0-000-00-002-F, February 1, 2000

Recommendation No. 2:         We recommend that the Office of financial Management:

2.1	    Complete the rescheduling and forward updated information on rescheduled loans
        to Riggs National Bank and ensure that the bank’s system reflects this
        information.

2.2	    Research and make a determination about whether the adjustments recorded by
        Riggs National Bank was needed.
                                                                         APPENDIX III
                                                                            Page 9 of 9
2.3	   Direct Riggs National Bank to correct all adjustments that were not needed to the
       September 30, 1998 USAID Loan Accounting Information System (LAIS) loan
       balances.

Recommendation is pending final action by USAID

Audit on USAID’s Advances and
Related Internal Controls Audit Report
No. 0-000-00-003-F, February 1, 2000

Recommendation No. 1:         We recommend that the Office of Financial Management
develop procedures to reduce its backlog of unprocessed vouchers and establish a
methodology of estimating incurred expenses that should be reported against the
outstanding advances at fiscal year end.

Recommendation is pending final action by USAID

Recommendation No. 2:          We recommend that the Office of Financial Management
develop procedures to ensure that grant agreements and amendments are promptly
recorded in the financial systems and develop ways to integrate its financial systems.

Recommendation is pending final action by USAID

Recommendation No. 3:          We recommend that the Office of Financial Management
perform a reconciliation to verify the accuracy of unliquidated obligation balances and
related information transferred to the Department of Health and Human Services.

Recommendation is pending final action by USAID

Recommendation No. 4:         We recommend that the Office of Financial Management
perform periodic reconciliations between its subsidiary ledger and general ledger.

Recommendation is pending final action by USAID.


Audit of USAID’s Accrued Expenses,
Accounts Payable, And Related Internal Controls
Report No. 0-000-00-004-F, February 9, 2000

Recommendation No. 1:          We recommend that USAID’s Office of Financial
Management Develop a methodology for calculating accrued expenses and accounts
payable at fiscal year-end in accordance with the Federal Accounting Standards Advisory
Board accounting standards.

Recommendation is pending final action by USAID
                                                                            APPENDIX III
                                                                              Page 10 of 9
Report on USAID’s Fund Balance with
the U.S. Treasury and Related Internal Controls
Report No. 0-000-00-005-F, February 17, 2000

Recommendation No. 4:          We recommend that the Office of Financial Management
record the liquidations of the advances disbursed against the 1998/1999 Development
Assistance appropriation (728/91021) to the benefiting appropriation and replenish those
funds to the 1998/1999 Development Assistance appropriation prior to the close of fiscal
year 2000 and implementation of the new accounting system.

Recommendation is pending final action by USAID


Audit of USAID’s Actions to Correct Financial
Management System Planning Deficiencies
Audit Report No.A-000-00-003-P August 24, 2000

Recommendation No. 1:         We recommend that the Chief Information Officer, in
conjunction with the Capital Investment Review Board and the Chief Financial Officer:

1.1	   Develop and implement a process for selecting information technology investments
       that meets requirements of OMB’s guidelines for Selecting Information Technology
       Investments and GAO’s Executive Guide: Leading Practices in Capital Decision
       Making; and

1.2	   Apply the process to prioritize USAID’s financial management system investments
       as part of a portfolio of planned information technology investments as part of a
       portfolio of planned information technology investments for USAID’s Fiscal year
       2002 budget submission to OMB.

Recommendation is pending final action by USAID

Recommendation No. 2: We recommend that the Chief Financial Officer revise the
financial management systems remediation plan (i.e., the Chief Financial Officer’s Five
Year Plan, Modernization Plan, and the Office of Management and Budget Circular A-11
budget schedules) to include the estimated resources, remedies, and intermediate target dates
needed to implement an integrated financial management system as required by the Federal
Financial management Improvement Act of 1996.

Recommendation is pending final action by USAID

Recommendation No. 3: We recommend that the Chief Information Officer and the Chief
Financial Officer work with the Assistant Administrator for management to ensure that the
Change Management Team and the Office of Financial Systems Integration collectively
have the responsibilities, the authority, and the structure to direct the planning, design,
                                                                         APPENDIX III
                                                                           Page 11 of 9
development, and deployment of all financial and mixed financial system components of the
Integrated Financial management System Program.

Recommendation is pending final action by USAID
                                                                              APPENDIX IV
                                                                                 Page 1 of 1




          INTERNAL CONTROL REPORTS ISSUED

                FOR FISCAL YEAR 2000



The following is a list of the individual reports issued on USAID’s fiscal year 2000 financial
statements major line items:

       Audit on USAID’s Credit Programs and Related Internal Controls for Fiscal year
       2000, Report No. 0-000-00-002-F, February 15, 2001.

       Audit on USAID’s Advances and Related Internal Controls for Fiscal year 2000,
       Report No. 0-000-00-003-F, February 15, 2001.

       Audit of USAID’s Accrued Expenses, Accounts Payable, and Related Internal
       Controls for Fiscal year 2000, Report No. 0-000-00-004-F, February 15, 2001.

       Audit on USAID’s Fund Balance with the U.S Treasury and Related Internal Controls
       for Fiscal year 2000, Report No. 0-000-00-005-F, February 15, 2001.
UNAUDITED                                Appendix VI
                                          Page 1 of 1




            USAID’S CONSOLIDATED FINANCIAL

            STATEMENTS FOR FISCAL YEAR 2000

